No. _______
IN THE
SUPREME COURT OF THE UNITED STATES
_______________________________
JOSEPH L. BERRY, PETITIONER
V.
THE STATE OF OHIO, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE OHIO COURT OF APPEALS,
TENTH APPELLATE DISTRICT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
OFFICE OF THE OHIO PUBLIC DEFENDER
Carly M. Edelstein, Esq.
Assistant State Public Defender
Counsel of Record
250 East Broad Street, Suite 1400
Columbus, Ohio 43085
Phone: (614) 752-7033
Fax: (614) 752-5167
carly.edelstein@opd.ohio.gov
Counsel for Joseph L. Berry

MOTION
Petitioner Joseph L. Berry requests leave to file the attached petition for a writ
of certiorari without prepayment of costs and to proceed in forma pauperis. This relief
is warranted because during all phases of the proceedings below Mr. Berry sought
similar relief and counsel was appointed to him. Counsel was appointed by the
Franklin County Court of Common Pleas on December 12, 2017, to represent Mr.
Berry in his direct appeal before the Court of Appeals of Ohio for the Tenth Appellate
District in State of Ohio v. Joseph L. Berry, No. 18 AP 01187. Entry attached at App.
1a. Counsel for trial was also appointed by the Franklin County Court of Common
Pleas on January 25, 2016 in State of Ohio v. Joseph L. Berry, No. 15 CR 005882.
Entry attached at App. 3a.
As further grounds for relief, Mr. Berry has been incarcerated in the Ohio
Department of Rehabilitation and Correction since December 10, 2010. He therefore
remains indigent and unable to hire counsel.
CONCLUSION
For the foregoing reasons, Mr. Berry should be granted leave to file the
attached petition for a writ of certiorari without prepayment of costs and to proceed
in forma pauperis.
Respectfully Submitted,
OFFICE OF THE OHIO PUBLIC DEFENDER
/s/ Carly M. Edelstein
Carly M. Edelstein
Assistant State Public Defender
Counsel of Record

2

250 East Broad Street, Suite 1400
Columbus, Ohio 43215
Phone: (614) 752-7033
Fax: (614) 752-5167
carly.edelstein@opd.ohio.gov
Counsel for Joseph L. Berry
CERTIFICATE OF SERVICE
I hereby certify that a true copy of the foregoing MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS has been sent by UPS Next Day Air, to the
office of Ronald J. O’Brien, Franklin County Prosecutor and Michael P. Walton,
Assistant Franklin County Prosecutor, Hall of Justice, 373 South High Street, 14th
Floor, Columbus, Ohio 43215, on this 9th day of September, 2020.
/s/ Carly M. Edelstein
Carly M. Edelstein
Assistant State Public Defender
Counsel for Joseph L. Berry

3

No. _______
IN THE
SUPREME COURT OF THE UNITED STATES
_______________________________
JOSEPH L. BERRY, PETITIONER
V.
THE STATE OF OHIO, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO THE OHIO COURT OF APPEALS,
TENTH APPELLATE DISTRICT
APPENDIX TO
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
State of Ohio v. Joseph Berry, Case No. 15CR-5882, Appointment Entry ........... 1a
State of Ohio v. Joseph Berry, Case No. 15CR-5882, Affidavit of Indigency ....... 3a

1a

2a

3a

